FDIC Office of Inspector General Press Release: Bowie Realtor Sentenced to Over 4 Years in Prison in $2 Million Mortgage Fraud Scheme
News Release
United States Department of Justice
District of Maryland
United States Attorney's Office
Rod J. Rosenstein, United States Attorney
Vickie E. LeDuc,Public Information Officer
410-209-4885
FOR IMMEDIATE RELEASE
November 22, 2013
Bowie Realtor Sentenced to Over 4 Years in Prison in $2 Million Mortgage Fraud Scheme
Greenbelt, Maryland - U.S. District Judge Peter J. Messitte sentenced Michael Abobor, age 38, of Bowie, Maryland, today to 51 months in prison, followed by five years of supervised release, for wire fraud in connection with a mortgage fraud scheme involving intended losses of at least $2 million. Judge Messitte also entered an order that Abobor forfeit $2,026,205 and pay restitution of $1,832,650.
The sentence was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Acting Inspector General Fred W. Gibson, Jr. of the Federal Deposit Insurance Corporation; Special Agent in Charge Kathy Michalko of the United States Secret Service â Washington Field Office; and Special Agent in Charge Cary A. Rubenstein of the Housing and Urban Development Office of Inspector General - Office of Investigations.
According to his plea agreement, in the Spring and Summer of 2007, Abobor, a licensed realtor, submitted fraudulent loan applications for the purchase of homes in Maryland. Abobor purchased two homes in his own name, and purchased the rest of the homes using the names, and credit, of various friends and family members. Each loan application contained fraudulent information about the borrowerâs earnings (including their monthly income and their assets) and employers, of which Abobor had full knowledge. Some of these applications contained fake documents, like doctored W-2s and paystubs; and all of them alleged that the borrower made much more money than he or she really did. Based on these fraudulent application materials, the victim lending institutions funded loans that totaled hundreds of thousands of dollars, resulting in substantial commission payments to Abobor. Eventually, each of these loans fell into default, causing large losses to the victims. Abobor also received large amounts of money that were disguised as ârenovation paymentsâ and funded by the mortgages.
For example, on July 25, 2007, Abobor facilitated the purchase of a home in Bowie, and while serving as the buyerâs real estate agent, knowingly submitted a false loan application on the buyerâs behalf. The loan application, among other things, vastly inflated the buyerâs monthly income figures. Relying upon these false representations, the lending institution funded a loan of $375,000. As part of this transaction, Abobor received a commission payment of $5,499, and also received over $37,000 in ârenovationâ payments.
In all, Abobor arranged at least seven fraudulent real estate transactions, caused more than $2,000,000 in intended losses to victim financial institutions, took in excess of $20,000 in fraudulent real estate commissions, and collected over $270,000 in extra money from the transactions in the form of third party disbursements for renovations that were never completed.
The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate and investigate mortgage fraud and promote the early detection, identification, prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage-Fraud/index.html.
Todayâs announcement is part of efforts underway by President Obamaâs Financial Fraud Enforcement Task Force (FFETF) which was created in November 2009 to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20 federal agencies, 94 U.S. attorneysâ offices and state and local partners, itâs the broadest coalition of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since its formation, the task force has made great strides in facilitating increased investigation and prosecution of financial crimes; enhancing coordination and cooperation among federal, state and local authorities; addressing discrimination in the lending and financial markets and conducting outreach to the public, victims, financial institutions and other organizations. Over the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants. For more information on the task force, visit www.stopfraud.gov.
United States Attorney Rod J. Rosenstein praised the FDIC Office of Inspector General, U.S. Secret Service and the Department of Housing and Urban Development Office of Inspector General for their work in the investigation. Mr. Rosenstein thanked Assistant U.S. Attorney Sujit Raman, who prosecuted the case.
# # #